No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DUWAYNE JONES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Duwayne Jones, pursuant to SUP CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of
the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ' 3006A. Therefore, in reliance upon RULE
39.1 and ' 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ' 1746.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
November 17, 2020

By:

s/ Peter Birch
Peter Birch
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401
(561) 833-6288

